1a
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
U.S. COMMODITY FUTURES
TRADING COMMISSION,
Plaintiff-Appellant,
v.
MONEX CREDIT COMPANY;
MONEX DEPOSIT COMPANY;
NEWPORT SERVICES
CORPORATION; MICHAEL
CARABINI; LOUIS
CARABINI,
Defendants-Appellees.

No. 18-55815
D.C. No.
8:17-cv-01868JVS-DFM
OPINION

Appeal from the United States District Court
for the Central District of California
James V. Selna, District Judge, Presiding
Argued and Submitted March 13, 2019
San Francisco, California
Filed July 25, 2019
Before: Eugene E. Siler,* A. Wallace Tashima, and
M. Margaret McKeown, Circuit Judges.
Opinion by Judge Siler

The Honorable Eugene E. Siler, United States Circuit Judge
for the U.S. Court of Appeals for the Sixth Circuit, sitting by
designation.
*

2a
SUMMARY**
Commodity Future Trading Commission
The panel reversed the district court’s dismissal of
the Commodity Future Trading Commission’s
enforcement action against Monex Credit Company
for alleged fraud in precious metals sales.
The CTFC regulates commodity futures markets
under the Commodity Exchange Act (“CEA”). The
Dodd-Frank Wall Street Reform and Consumer
Protection Act of 2010 amended the CEA and
extended the CEA to commodity transactions offered
on a leveraged or margined basis as if they were
futures trades. Congress carved out an exception: the
CEA does not apply to leveraged retail commodity
sales that result in “actual delivery” within 28 days.
Monex sells precious metals to investors. Through
Monex’s Atlas Program, investors can purchase
commodities on margin, which is also known as
leverage. The CFTC alleged that Atlas was an illegal
and unregistered leveraged retail commodity
transaction market.
The panel held that the actual delivery exception
was an affirmative defense on which the commodities
trader bore the burden of proof. The panel held that
actual delivery required at least some meaningful
degree of possession or control by the customer. The
panel further held that it was possible for this
This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.
**

3a
exception to be satisfied when the commodity sat in a
third-party depository, but not when, as here, metals
were in the broker’s chosen depository, never
exchanged hands, and subject to the broker’s
exclusive control, and customers had no substantial,
non-contingent interests. The panel concluded that
because this affirmative defense did not, on the face of
the complaint, bar the CFTC from relief on Counts I,
II, and IV, the district court erred in dismissing those
claims.
In Count III, the CFTC alleged that Monex violated
CEA § 6(c)(1), 7 U.S.C. § 9(1), and 17 C.F.R. § 180.1,
by fraudulently deceiving its customers, but there was
no allegation that Monex manipulated the market.
The panel concluded that § 6(c)(1)’s language was
unambiguous, and held that the CFTC could sue for
fraudulently deceptive activity, regardless of whether
it was also manipulative. The panel also held that
when someone violated § 6(c)(1), the CFTC could bring
an enforcement action.
The panel held that at this point, the CFTC’s wellpleaded complaint must be accepted as true. Because
the CFTC’s claims were plausible, the panel
remanded for further proceedings.

COUNSEL
Robert A. Schwartz (argued), Deputy General
Counsel; Anne W. Stukes, Assistant General Counsel;
Daniel J. Davis, General Counsel; U.S. Commodity
Futures Trading Commission, Washington, D.C.; for
Plaintiff-Appellant.

4a
Neil A. Goteiner (argued), Elizabeth A. Dorsi, and C.
Brandon Wisoff, Farella Braun & Martel LLP, San
Francisco, California, for Defendants-Appellees.
OPINION
SILER, Circuit Judge:
A two-letter conjunction and a two-word phrase
decide this case. At stake are hundreds of millions of
dollars. Congress, acting shortly after the economy
began to stabilize from the financial crisis that began
a decade earlier, passed the Dodd-Frank Wall Street
Reform and Consumer Protection Act, Pub. L.
No. 111-203, 124 Stat. 1376 (2010), which amended
the Commodity Exchange Act (CEA) to expand the
Commodity Future Trading Commission’s (CFTC)
enforcement authority. This case is about the extent
of those powers.
Monex Credit Company, one of the defendants and
appellees, argues that the CFTC went too far when it
filed this $290 million lawsuit for alleged fraud in
precious metals sales. According to Monex, DoddFrank extended the CFTC’s power only to fraud-based
manipulation claims, so stand-alone fraud claims—
without allegations of manipulation—fail as a matter
of law.
Not only that, Monex argues, but Dodd-Frank also
immunizes Monex from the CFTC’s claims that it ran
an unregistered, off-exchange trading platform. The
CEA’s registration provisions do not apply to retail
commodities dealers who “actual[ly] deliver[]” the
commodities to customers within twenty-eight days.

5a
See 7 U.S.C. § 2(c)(2)(D)(ii)(III)(aa). Monex insists
that it falls within this exception.
On both fronts, the district court agreed with Monex
and dismissed the CFTC’s complaint for failure to
state a claim under Civil Rule 12(b)(6).
We
REVERSE and REMAND.
Background
The facts come from the CFTC’s complaint, which,
at this stage, we must accept as true. See Syed v. MI, LLC, 853 F.3d 492, 499 (9th Cir. 2017).
Monex and the Atlas Program
California-based Monex has been a major player in
the precious metal markets for decades. It sells gold,
silver, platinum, and palladium to investors who have
a variety of buying options, but here we focus on what
Monex calls its “Atlas Program.” Through Atlas,
investors can purchase commodities on “margin.” Also
known as “leverage,” the concept is simple: A
customer buys precious metals by paying only a
portion of the full price. The remaining amount is
financed through Monex.
Once a customer opens an account, she may take
open positions in precious metals. But the trading
occurs “off exchange”—that is, it does not happen on a
regulated exchange or board of trade. Instead, Monex
controls the platform, acts as the counterparty to
every transaction, and sets the price for every trade.
Since mid-2011, Monex has made more than
140,000 trades for more than 12,000 Atlas accounts,

6a
each of which requires margin of 22–25% of the
account’s total value. A customer who deposits
$25,000 in Atlas as margin can open positions valued
at $100,000; she owes the additional $75,000 to
Monex. Over time, the account’s value changes—it
goes up and down—as markets do. The difference
between the account’s total value and the amount the
customer still owes to Monex is the account’s “equity.”
And if that difference falls below a certain threshold,
Monex can issue a “margin call”—it can require
customers to immediately deposit more money into
the accounts to increase the equity. Monex can do so
at any time, and it can change margin requirements
whenever it wants.
Monex also retains sole discretion to liquidate
trading positions without notice to the customer if
equity drops too low, and it controls the price for every
trade. Price spreads— the difference between the bid
price and ask price—are 3% and generate much of the
program’s revenue. Commissions and fees make up
the rest, and that money comes directly out of
customer accounts’ equity. Over the last eight years,
Monex has made margin calls in more than 3,000
Atlas accounts and has force-liquidated at least 1,850.
Atlas investors can make either “short” or “long”
trades. Short trades bet on metal prices going down,
and long up. Monex allows investors to place “stop” or
“limit” orders to manage their trading positions.
About a quarter of trading positions in leveraged
Atlas accounts open and close within two weeks.
Customers must sign the Atlas account agreement,
which gives Monex control over the metals. Monex
does not hand over any metals, and customers never

7a
possess or control any physical commodity. Instead,
Monex stores the metals in depositories with which
Monex has contractual relationships. Monex retains
exclusive authority to direct the depository on how to
handle the metals; investors and the depositories
have no contractual relationship with each other.
Customers can get their hands on the metals only by
making full payment, requesting specific delivery of
metals, and having the metals shipped to themselves,
a pick-up location, or an agent.
This structure applies to both long and short
positions. For a long position, Monex retains the right
to close out the position at any time in its sole
discretion and at a price Monex chooses. Metal
remains in the depository, but Monex claims to
transfer ownership of the metals to the customer. The
same is true for short positions, except that instead of
transferring ownership, Monex loans the customer
metals that the customer immediately sells back to
Monex. According to the CFTC, Monex simply makes
a “book entry” when customers make trades—nothing
more.
The Commodity Exchange Act and Dodd-Frank
The CFTC regulates commodity futures markets
under the CEA. See 7 U.S.C. §§ 1 et seq. Part of the
CEA’s purpose is “to protect all market participants
from fraudulent or other abusive sales practices and
misuses of customer assets.” Id. § 5(b). The CEA
requires that futures be traded on regulated
exchanges. Id. § 6(a)(1). Brokers must register with
the CFTC. Id. § 6d(a)(1). The CEA further protects
against conflicts of interest and market abuse. Id.

8a
§§ 6d(c), 7(d). And the statute prohibits fraud. Id.
§ 6b(a)(2).
Originally, the CEA did not apply to retail
commodity transactions because they were not
futures contracts. See CFTC v. Zelener, 373 F.3d 861
(7th Cir. 2004). As Zelener recognized, the CEA
applied only to futures contracts, even though other
types of sales—such as leveraged retail commodity
sales—can have similar economic effects. Id. at 866–
67.
This changed in 2010 when Congress, acting in the
wake of financial turmoil, passed Dodd-Frank—part
of which amended the CEA. See Dodd-Frank Wall
Street Reform and Consumer Protection Act of 2010,
Pub. L. No. 111-203, 124 Stat. 1376 (2010). Congress
extended the CEA to commodity transactions offered
“on a leveraged or margined basis, or financed by the
offeror” “as if” they were futures trades. See 7 U.S.C.
§ 2(c)(2)(D)(iii).
But Congress carved out an
exception: The CEA would not apply to leveraged
retail commodity sales that resulted “in actual
delivery within 28 days.” Id. § 2(c)(2)(D)(ii)(III)(aa).
Congress also amended the CEA by prohibiting the
use of “any manipulative or deceptive device or
contrivance” in market transactions. CEA § 6(c)(1).
This language mirrored § 10(b) of the Securities and
Exchange Act, and, as did § 10(b), authorized the
governing agency to promulgate rules implementing
the statute and bring civil enforcement actions. See
7 U.S.C. §§ 9(1), 13a-1(a); 15 U.S.C. § 78j(b).

9a
Monex’s Alleged Scheme and This Lawsuit
The CFTC contends that Atlas is a scheme that has
violated the CEA since at least July 2011. Monex tells
its customers that leveraged precious metals trading
is “a safe, secure and profitable way for retail
customers to invest” when, in fact, the program
requires that many customers lose money. What’s
more, the CFTC alleges, Atlas is designed so that
when customers lose, Monex gains: Because Monex is
the counterparty for each Atlas transaction, Monex
benefits from large price spreads at the customer’s
expense. Sales representatives, too, have an incentive
to push the program: Monex pays salespeople with
“commissions and bonuses tied directly to the number
of Atlas accounts they open” and the number of
transactions completed; account performance is not a
factor in compensation. So Monex engages in “highpressure sales tactics,” cajoling potential customers
into buying leveraged precious metals while it
“misrepresent[s] the likelihood of profit” and
“systematically downplay[s] the risks” to ensure
customers invest in Atlas, inevitably leading to
customer losses.
The complaint alleges deep and broad losses to
about 90% of all leveraged Atlas accounts—totaling
some $290 million. In some cases, individual losses
were extreme: some customers lost hundreds of
thousands of dollars, and many others suffered fivefigure losses. New investors never learned about
those losses because Monex never told them. Instead,
Monex promised that precious metals are safe and
“will always have value,” so a customer cannot lose
her investment.

10a
The CFTC filed this lawsuit seeking an injunction
and restitution against Monex Deposit Company,
Monex
Credit
Company,
Newport
Services
Corporation, Louis Carabini, and Michael Carabini
(Monex). The CFTC contends that Atlas is an illegal
and unregistered leveraged retail commodity
transaction market. The CFTC filed four counts,
alleging violations of:
(1) CEA § 4(a), 7 U.S.C. § 6(a), for engaging in
off-exchange transactions;
(2) CEA § 4b(a)(2)(A) and (C), 7 U.S.C.
§ 6b(a)(2)(A) and (C), for fraud;
(3) CEA § 6(c)(1), 7 U.S.C. § 9(1), 17 CFR
§ 180.1(a)(1)–(3), for fraud; and
(4) CEA § 4d, 7 U.S.C. § 6d(a)(1), for failing to
register.
The CFTC filed this lawsuit in the Northern District
of Illinois in September 2017. The same day, the
CFTC moved for a preliminary injunction. A month
later, Monex filed a motion to dismiss for failure to
state a claim under Civil Rule 12(b)(6). The Illinois
district court transferred the case to the Central
District of California three weeks later.
The District Court Dismisses the CFTC’s Complaint
The district court granted Monex’s motion to
dismiss, denied as moot the motion for preliminary
injunction, and gave the CFTC thirty days to amend
its complaint as to Count III, the CEA § 6(c)(1) fraud
claim. The CFTC declined the invitation to amend
and asked the court to enter judgment, which it did.

11a
The district court determined that Counts I, II, and
IV failed because Monex fit within the actual delivery
exception. 7 U.S.C. § 2(c)(2)(D)(ii)(III)(aa). The
district court dismissed Count III because § 6 allows
the CFTC to bring only fraud-based manipulation
claims—not stand-alone fraud cases. In short, the
district court held that “any manipulative or deceptive
device” in § 6(c)(1) requires manipulative and
fraudulent behavior. And because the CFTC alleged
only fraud—and not manipulation—Count III failed
as a matter of law. This appeal followed.
Standard of Review
In reviewing a Civil Rule 12(b)(6) dismissal, we give
no deference to the district court. Soltysik v. Padilla,
910 F.3d 438, 444 (9th Cir. 2018). This de novo review
consists of two steps. First, we identify all the factual
allegations in the complaint and accept them as true;
legal conclusions are set aside. Ashcroft v. Iqbal, 556
U.S. 662, 678–79 (2009). Second, reading all the
allegations in the light most favorable to the nonmoving party, we ask whether the facts state a claim
for relief. Id.; see Fed. R. Civ. P. 8(a). To survive, the
claim must be plausible. Iqbal, 556 U.S. at 678. That
is, it must rise “above the speculative level.” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555–56 (2007).
Claims move beyond speculation when the allegations
“allow[] the court to draw the reasonable inference
that the defendant is liable for the misconduct
alleged.” Iqbal, 556 U.S. at 678. This is a “contextspecific task that requires the reviewing court to draw
on its judicial experience and common sense.” Id. at
679.

12a
For claims of fraud, we require additional
specificity: who, what, when, where, and how. See
Fed. R. Civ. P. 9(b); Vess v. Ciba-Geigy Corp., USA,
317 F.3d 1097, 1106 (9th Cir. 2003).
Discussion
A.

The Actual Delivery Exception

We must first determine whether the actual
delivery exception is an element of a CEA claim or an
affirmative defense. This distinction is important
because Rule 8 does not require plaintiffs to plead
around affirmative defenses. See Jones v. Bock, 549
U.S. 199, 216 (2007). And “[o]rdinarily, affirmative
defenses…may not be raised on a motion to dismiss.”
Lusnak v. Bank of Am., N.A., 883 F.3d 1185, 1194 n.6
(9th Cir. 2018).
The Eleventh Circuit has ruled that the actual
delivery exception “is an affirmative defense on which
the commodities trader bears the burden of proof.”
CFTC v. S. Trust Metals, Inc., 894 F.3d 1313, 1324–
25 (11th Cir. 2018). We agree. Placing the burden on
the defendant is, after all, the “general rule where [the
defendant] claims the benefits of an exception to the
prohibition of a statute.” United States v. First City
Nat’l Bank of Houston, 386 U.S. 361, 366 (1967). And
this “longstanding convention is part of the backdrop
against which Congress writes laws,” so courts must
“respect it unless we have compelling reasons to think
that Congress meant to put the burden of persuasion
on the other side.” Meacham v. Knolls Atomic Power
Lab., 554 U.S. 84, 91–92 (2008).

13a
Nevertheless, we can consider an affirmative
defense on a motion to dismiss when there is “some
obvious bar to securing relief on the face of the
complaint.” ASARCO, LLC v. Union Pac. R.R. Co.,
765 F.3d 999, 1004 (9th Cir. 2014). In other words,
dismissal based on an affirmative defense is
permitted when the complaint establishes the
defense. See Sams v. Yahoo! Inc., 713 F.3d 1175, 1179
(9th Cir. 2013).
To determine whether Atlas,
described in the CFTC’s complaint, includes “actual
delivery,” we must identify the meaning of that
statutory term.
Under CEA §§ 2(c)(2)(D)(i) and (iii), any “agreement,
contract, or transaction in any commodity that is
entered into…on a leveraged or margined basis” is
subject to “sections 6(a), 6(b), and 6b” of the CEA “as
if the agreement, contract or transaction was a
contract of sale of a commodity for future delivery.”
7 U.S.C. §§ 2(c)(2)(D)(i) and (iii). But not all sales; the
adjacent section excludes “a contract of sale that
results in actual delivery within 28 days.” Id.
§ 2(c)(2)(D)(ii)(III)(aa).
The statute does not define “actual delivery,” and
undefined terms receive their ordinary meaning. See
Taniguichi v. Kan Pac. Saipan, Ltd, 566 U.S. 560,
566 (2012). “Delivery” means “[t]he formal act of
voluntarily transferring something; esp. the act of
bringing goods, letters, etc. to a particular person or
place.” Black’s Law Dictionary (9th ed. 2009). Black’s
defines “actual” as “[e]xisting in fact; real.” Id. “Actual
delivery” is the “act of giving real and immediate
possession to the buyer or the buyer’s agent.” Id. By
contrast, “constructive delivery” denotes “[a]n act that

14a
amounts to transfer of title by operation of law when
actual transfer is impractical or impossible.” Id.
The Eleventh Circuit adopted these definitions in
CFTC v. Hunter Wise Commodities, LLC, 749 F.3d
967 (11th Cir. 2014), where it held that a seller failed
to actually deliver commodities when it “did not
possess or control an inventory of metal from which it
could deliver to retail customers.” Id. at 980. The
court did “not define the precise boundaries of ‘actual
delivery,’” but it held that “[d]elivery must be actual.”
Id. at 979 (emphasis in original). “If ‘actual delivery’
means anything, it means something other than
simply ‘delivery,’ for we must attach meaning to
Congress’s use of the modifier ‘actual.’” Id. The
defendant in Hunter Wise could not actually deliver
anything because it did not have the commodities.
According to Monex, Hunter Wise tells us that the
actual delivery exception applies only when the
commodities do not in fact exist. Monex argues that
it makes actual delivery “because the metals exist in
fact and, upon sale, are voluntarily delivered to
independent depositories for the buyer’s benefit.”
Appellee Br. at 10–11. Monex, unlike the defendant
in Hunter Wise, has the underlying commodities—
they actually exist. So, Monex argues, Hunter Wise
does not apply, and Atlas fits the exception.
Hunter Wise is not so limited. That court first held
that “actual delivery” means giving “real and
immediate possession to the buyer or buyer’s agent.”
Hunter Wise, 749 F.3d at 979 (quoting Black’s Law
Dictionary 494 (9th ed. 2009)). The seller in Hunter
Wise did not give the buyer possession of the
commodities because it did not possess any in the first

15a
instance. Id. Without inventory, the seller could not
actually deliver anything. Id. But “actual” in the
statute modifies delivery, not existence. See id. Of
course, as Hunter Wise recognizes, existence is a
prerequisite to delivery—one cannot deliver that
which does not exist.
But the fact that the
commodity’s existence is necessary to comply with the
exception does not mean existence is sufficient to fit
the exception. If Congress wanted only to ensure
enough inventory it could have said so. It did not; it
required “actual delivery.”
Thus, the plain language tells us that actual
delivery requires at least some meaningful degree of
possession or control by the customer. It is possible
for this exception to be satisfied when the commodity
sits in a third-party depository, but not when, as here,
metals are in the broker’s chosen depository, never
exchange hands, and are subject to the broker’s
exclusive control, and customers have no substantial,
non-contingent interests.
This interpretation is confirmed by the broader
statutory context. See Abramski v. United States, 573
U.S. 169, 179 (2014). Dodd-Frank expanded the CEA
to close the so-called Zelener loophole, which allowed
companies to offer commodity sales on margin without
regulation, because these transactions mimic
conventional futures trades long regulated by the
CFTC. See Zelener, 373 F.3d at 866. On the other
hand, sales where customers obtain meaningful
control or possession of commodities, i.e., when actual
delivery occurs, do not mimic futures trading and are
therefore exempt from registration and related CEA
requirements.

16a
Monex argues that in the context of a provision
regulating leveraged commodity sales, it would make
little sense for “actual delivery” to turn on possession
or control, because such a reading would clash with
“margin,” which means “[c]ash or collateral required
to be paid to a securities broker by an investor to
protect the broker against losses from securities
bought on credit.” Black’s Law Dictionary (9th
ed. 2009). Because the very meaning of the word
“margin” requires that the buyer deposit collateral
with the seller, actual delivery must mean something
other than transferring possession or control to the
buyer. Otherwise, Monex argues, margin would mean
nothing.
Yet, even if the commodity serves as collateral,
there is no reason why the buyer cannot control it. In
many financing contexts, some degree of buyer
possession or control is commonplace.
While
permitting customers to obtain significant control
over or possession of metals might be practically
difficult here, that fact does not displace the statute’s
plain meaning.
If we had any lingering doubt about the statute’s
plain meaning, resort to conventional canons of
interpretation would further support our conclusion.
First, the CEA uses “delivery” in § 1a(27), which we
have said “cannot be satisfied by the simple device of
a transfer of title.” CFTC v. Noble Metals Int’l, Inc., 67
F.3d 766, 773 (9th Cir. 1995). And because we assume
that “Congress means the same words in the same
statute to mean the same thing,” actual delivery must
require more than simple title transfer. Texas Dept. of
Housing & Cmty. Affairs v. Inclusive Cmtys. Project,

17a
Inc., 135 S. Ct. 2507, 2535 (2015). Second, our
interpretation presents no ineffectiveness or
surplusage problems because it does not, as the
district court believed, mean that “every financed
transaction would violate Dodd-Frank,” thus
“eliminat[ing] the Actual Delivery Exception from the
CEA.” 311 F. Supp. 3d 1173, 1181 (C.D. Cal. 2018)
(quoting CFTC v. Worth Grp., Inc., No. 13-80796-CIV,
2014 WL 11350233, at *2 (S.D. Fla. Oct. 27, 2014)).
The CFTC does not present a bare-bones complaint.
It includes detailed and specific factual allegations.
All we say today is that those allegations, taken as
true, do not establish actual delivery.
Finally, even if the statute were ambiguous, we
would find the CFTC’s interpretive guidance
persuasive. Retail Commodity Transactions Under
CEA, 78 Fed. Reg. 52,426 (Aug. 23, 2013); see
Skidmore v. Swift & Co., 323 U.S. 134 (1944). There,
the CFTC stated it would employ a “functional
approach” that considers “[o]wnership, possession,
title, and physical location of the commodity
purchased or sold.” 78 Fed. Reg. at 52,428. Other
factors included “the nature of the relationship
between the buyer, seller, and possessor of the
commodity,” and the “manner in which the purchase
or sale is recorded and completed.” Id.
Monex insists that Atlas matches the second
illustrative example of actual delivery set forth in the
guidance: physical transfer of all purchased
commodities into an independent depository plus
transfer of title to the buyer. Id. However, these steps
constitute actual delivery only if they are “not simply
a sham.” Id. The CFTC engages in a “careful

18a
consideration” of the relevant functional factors
(listed above) to determine if the exception is indeed
applicable. Here, customers have no contractual
rights to the metal; Monex, not customers, has a
relationship with depositories; Monex maintains total
control over accounts and can liquidate at any time in
its own discretion; and the entire transaction is
merely a book entry. This amounts to sham delivery,
not actual delivery.
To recap, “actual delivery” unambiguously requires
the transfer of some degree of possession or control.
Other interpretive tools, including the CFTC’s
guidance, reinforce this conclusion. Monex challenges
the CFTC’s characterization of its delivery scheme,
but, at the 12(b)(6) stage, we ignore such factual
disputes and accept as true allegations in the
complaint. Because this affirmative defense does not,
on the face of the complaint, bar the CFTC from relief
on Counts I, II, and IV, the district court erred in
dismissing those claims.
B.

Manipulative or Deceptive

In Count III, the CFTC alleges that Monex violated
CEA § 6(c)(1), 7 U.S.C. § 9(1), and 17 C.F.R. § 180.1 by
fraudulently deceiving its customers. There is no
allegation that Monex manipulated the market, so we
must decide whether § 6(c)(1) covers fraud claims in
the absence of manipulation. The text:
It shall be unlawful for any person, directly or
indirectly, to use or employ, or attempt to use
or employ, in connection with any swap, or a
contract of sale of any commodity in interstate
commerce, or for future delivery on or subject

19a
to the rules of any registered entity, any
manipulative
or
deceptive
device
or
contrivance, in contravention of such rules and
regulations as the Commission shall
promulgate.
7 U.S.C. § 9(1).
The crucial question is whether “any manipulative
or deceptive device” allows stand-alone fraud claims
or requires fraud-based manipulation. The district
court determined that the statute unambiguously
requires “both manipulative and deceptive conduct,
not one or the other.” Or, another way to say it, the
district court held that “or” really meant “and.” We
disagree.
When the word “or” joins two terms, we apply a
disjunctive reading. See, e.g., United States v. Woods,
571 U.S. 31, 45–46 (2013). When Congress places “or”
between two words, we assume that Congress
intended the two terms as alternatives. See Scalia &
Garner, Reading Law, § 12 at 116 (2012). While there
are exceptions, this is not an instance where a
disjunctive meaning would produce absurd results
and statutory context compels us to treat “or” as if it
were “and.” See De Sylva v. Ballentine, 351 U.S. 570,
573 (1956); United States v. Bonilla-Montenegro, 331
F.3d 1047, 1051 (9th Cir. 2003) (“a statute’s use of
disjunctive or conjunctive language is not always
determinative”). We conclude that § 6(c)(1)’s language
is unambiguous.
Authorizing claims against
“[m]anipulative or deceptive” conduct means what it
says: the CFTC may sue for fraudulently deceptive
activity, regardless of whether it was also
manipulative.

20a
Again, if we had any doubt, see Conn. Nat’l Bank v.
Germain, 503 U.S. 249, 253–54 (1992), other
interpretive tools support our conclusion. This CEA
provision is a mirror image of § 10(b) of the Securities
Exchange Act, which the Supreme Court has
interpreted as a “catch-all clause to prevent
fraudulent practices,” Chiarella v. United States, 445
U.S. 222, 226 (1980), that authorizes fraud-only
claims, see SEC v. Zandford, 535 U.S. 813, 822–
25 (2002). We presume that by copying § 10(b)’s
language and pasting it in the CEA, Congress adopted
§ 10(b)’s judicial interpretations as well. Merrill
Lynch, Pierce, Fenner & Smith, Inc. v. Dabit, 547 U.S.
71, 85–86 (2006).
The canon against surplusage does not point to a
different answer: § 6(c)(1)’s overlap with other
provisions is minimal, and partial redundancy hardly
justifies displacing otherwise clear text. See J.E.M.
Ag Supply, Inc. v. Pioneer Hi-Bred Int’l, Inc., 534 U.S.
124, 144 (2001). Nor does the fact that the applicable
statutory headings mention only manipulation and
not fraud. The full extent of a statutory provision
rarely fits into its title, so headings are often under
inclusive. See Lawson v. FMR LLC, 571 U.S. 429,
446 (2014). Finally the CEA elsewhere references a
“manipulative device or contrivance,” see 7 U.S.C.
§ 25(a)(1)(D)(i), suggesting that Congress knew how to
require market manipulation when it sought to do so.
The inclusion of “deceptive” in § 6(c)(1) must have
meaning.
Monex pulls two final arrows from its quiver. First,
Monex argues that the CFTC’s enforcement
jurisdiction comes only from CEA § 2. Without an

21a
independent jurisdictional grant in § 2, Monex argues,
the CFTC cannot bring a § 6(c)(1) fraud claim. In
support, Monex cites CFTC v. White Pine Tr. Corp.,
574 F.3d 1219 (9th Cir. 2009), where we considered
whether the CFTC had jurisdiction over certain
foreign currency trades. There, we focused on CEA
§ 4c, which applies only to a “transaction involving
any commodity regulated under this chapter.”
7 U.S.C. § 6c(b). The question in White Pine was
whether foreign currency trades were “regulated
under this chapter.” 574 F.3d at 1223. Section 2 of the
CEA generally excludes foreign currency from
regulation, see § 2(c)(1), but some foreign currency are
covered, see § 2(c)(2). Reading §§ 4c, 2(c)(1), and
2(c)(2) together, we held in White Pine that the specific
trades in that case did not fall under the CFTC’s
jurisdiction because foreign currency trades were
categorically excluded from the CEA under § 2(c)(1),
unless they were trades specifically exempted from
that exclusion under § 2(c)(2). The White Pine trades
did not fall under § 2(c)(2), and thus were excluded
under § 2(c)(1). Id.
As the district court noted, retail commodity
transactions are not addressed in § 2(c)(1)’s general
exclusion. Thus, there is no need for a specific
jurisdictional grant to overcome the general exclusion,
as was required in White Pine. Instead, the retail
commodity provision merely describes the types of
transactions to which other CEA sections—§§ 4(a),
4(b), and 4b—apply. In other words, § 2(c)(2)(D)—the
retail commodity provision—clarifies the interplay
between margined commodity sales and other sections
that apply to future contracts. This is necessary
because §§ 4(a), 4(b), and 4b applied only to futures

22a
trades, until § 2(c)(2)(D) confirmed that those sections
also apply to leveraged commodity sales.
No such clarification is needed with § 6(c)(1) because
the section applies to “any…contract of sale of any
commodity in interstate commerce.” And in those
sales, § 6(c)(1) outlaws the use of any manipulative or
deceptive device. Later, the CEA clarifies that
“[w]henever it shall appear to the Commission that
any registered entity or other person has” violated
“any provision of this chapter…the Commission may
bring an action in the proper district court of the
United States.” 7 U.S.C. § 13a-1(a). When someone
violates § 6(c)(1), the CFTC can bring an enforcement
action.
Finally, Defendants argue that if § 6(c)(1) means
what the CFTC says, then the statute applies not only
to margined commodity sales, but to ordinary retail
cash commodity sales, too. As Monex tells it, this
would mean that even everyday grocery sales would
be subject to the CFTC’s enforcement power. See
Appellee Br. at 35. This, Monex argues, cannot be the
case because such an “explosive increase of an
agency’s…authority” requires a clear statement from
Congress. Id. at 53. And “Congress…does not alter
the fundamental details of a regulatory scheme in
vague terms or ancillary provision—it does not, one
might say, hide elephants in mouseholes.” Whitman v.
Am. Trucking Ass’ns, 531 U.S. 457, 468 (2001).
In the first place, it is not clear that this amounts to
an elephant in a mousehole. By its terms, § 6(c)(1)
applies broadly to commodities in interstate
commerce. More important, this case does not involve
retail cash commodity sales. This case involves only

23a
margined commodity sales. And even Monex admits
that § 6(c)(1) applies to at least some margined
commodity sales—those that involve fraud-based
manipulation. The question we address is only
whether § 6(c)(1) also applies to stand-alone fraud
claims in the sale of leveraged commodities. Whether
the statute extends to non-leveraged sales is not
before us.
Conclusion
In bill drafting, as in life, little things often make
big differences. Here, three words stand between
dismissal and discovery. Although Monex contends
that no fraud occurred, we must, at this point, accept
as true the CFTC’s well-pleaded complaint to the
contrary.
And because the CFTC’s claims are
plausible, this lawsuit should continue.
REVERSED and REMANDED for
proceedings consistent with this decision.1

further

Monex’s unopposed motion for judicial notice (Dkt. 28) is
GRANTED.
1

24a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
U.S. COMMODITY FUTURES
TRADING COMMISSION,
Plaintiff-Appellant,
v.
MONEX CREDIT COMPANY;
et al.,

No. 18-55815
D.C. No.
8:17-cv-01868-JVS-DFM
Central District of
California, Santa Ana
ORDER

Defendants-Appellees.
Before: SILER,* TASHIMA, and McKEOWN, Circuit
Judges.
The panel has voted to deny the petition for
rehearing.
The full court has been advised of the petition for
rehearing and rehearing en banc, and no judge has
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petition for panel rehearing and the petition for
rehearing en banc are denied.

The Honorable Eugene E. Siler, United States Circuit Judge
for the U.S. Court of Appeals for the Sixth Circuit, sitting by
designation.
*

25a
APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV 17-01868 JVS
(DFMx)

Date May 1,
2018

Title Commodity Futures Trading Commission v.
Monex Credit Company, et al.
Present: The Honorable James V. Selna

Karla J. Tunis

Not Present

Deputy Clerk

Court Reporter

Attorneys Present for
Plaintiffs:

Attorneys Present for
Defendants:

Not Present

Not Present

Proceedings:

(IN CHAMBERS)
(Corrected May 15, 2018 at Page
5, End of First Full Paragraph)
Order Granting Defendants’ Motion
to Dismiss; Denying Plaintiff’s
Motion for Preliminary Injunction
as Moot; and Denying Defendant’s
Motion to Exclude CFTC’s Expert
Report of Dr. Robert D. Salvaggio as
Moot

26a
Before the Court are three motions.
First, Defendants Monex Deposit Company, Monex
Credit Company, Newport Services Corporation
(collectively, “Monex”), Michael Carabini, and Louis
Carabini (the “Individual Defendants” and, with
Monex, “Defendants”) move to dismiss pursuant to
Federal Rule of Civil Procedure 12(b)(6) Plaintiff
Commodity Futures Trading Commission’s (“CFTC”)
Complaint. (Notice of Motion to Dismiss (“MTD”),
Docket No. 40; Mem. re MTD, Docket No. 41-1.) The
CFTC filed an opposition. (Opp’n to MTD, Docket No.
164.) Defendants filed a reply. (Reply re MTD, Docket
No. 180.)
For the following reasons, the Court grants the
motion to dismiss.
Second, the CFTC filed a motion for preliminary
injunction pursuant to Section 6c(a) of the Commodity
Exchange Act (“CEA”), 7 U.S.C. § 13a-1(a). (Mot. for
Preliminary Injunction (“PI”), Docket No. 6.)
Defendants opposed. (Opp’n to Mot. for PI, Docket No.
166.) The CFTC replied. (Reply re Mot. for PI, Docket
No. 177.)
For the following reasons, the Court denies the
motion for preliminary injunction as moot.
Third, Defendants filed a motion to exclude the
evidence of the CFTC’s expert Dr. Robert D. Selvaggio
pursuant to Federal Rule of Evidence 702 and
Daubert v. Merrell Dow Pharmaceuticals, Inc., 509
U.S. 579 (1993). (Motion to Exclude (“MTE”), Docket
No. 154.) The CFTC opposed. (Opp’n to MTE, Docket

27a
No. 165.) Defendants replied. (Reply re MTE, Docket
No. 175.)
For the following reasons, the Court denies the
motion to exclude as moot.
I. BACKGROUND
The CFTC alleges the following facts. Monex,
located in Newport Beach, California, offers retail
customers two type of transactions. (Compl., Docket
No. 1 ¶¶ 14, 24.) Through the first type, which is not
at issue in this case, retail customers pay full price for
precious metals. (Id. ¶ 24.) Through the second type,
called the Atlas program, Monex offers precious
metals on a leveraged, margined, or financed basis:
retail customers purchase precious metals by only
paying a portion of the purchase price, and the
balance is financed. (Id.) Customers with Atlas
trading accounts may take open positions in precious
metals, but the trading does not take place on a
regulated exchange or board of trade. (Id. ¶ 25.)
Monex acts as the counterparty to every transaction,
and sets the price for every trade. (Id. ¶¶ 25, 34.)
When Atlas customers trade “on leverage” or “on
margin,” Monex finances a portion of their trading
positions. (Id. ¶ 28.) Monex requires that Atlas
customers deposit funds to serve as margin for open
trading positions in their trading accounts, generally
22-25% of the value of the trading account’s open
positions. (Id.) If equity in a customer’s trading
account declines to Monex’s “call” level, Monex can
issue a margin call and require its customer to
immediately deposit additional funds. (Id. ¶ 31.)
Monex can change its margin requirements at any

28a
time in its sole discretion. (Id.) Trading positions can
be liquidated without notice in “forced liquidations.”
(Id. ¶ 32.) Monex automatically liquidates trading
positions if a customer’s account equity falls to 7% and
can also liquidate a customer’s trading position at any
time in its sole discretion. (Id.)
Atlas customers must sign an Atlas account
agreement, which gives control over the metals traded
on the Atlas trading platform to Monex.1 (Id. ¶ 38.)
Exhibits to a complaint are considered part of the complaint
for purposes of a Rule 12(b)(6) motion. Hal Roach Studios, Inc. v.
Richard Feiner & Co., 896 F.2d 1542, 1555 n.19 (9th Cir. 1989).
Documents not physically attached to the complaint may
nonetheless be considered on a Rule 12(b)(6) motion if the
complaint refers to the document, the document is central to the
plaintiff’s claim, and no party questions the authenticity of the
copy attached to the motion to dismiss. Branch v. Tunnell, 14
F.3d 449, 454 (9th Cir. 1994), overruled on other grounds by
Galbraith v. County of Santa Clara, 307 F.3d 1119, 1127 (9th Cir.
2002). This “incorporation by reference” doctrine allows courts to
look beyond the pleadings without converting the Rule 12(b)(6)
motion into a motion for summary judgment. See Knievel v.
ESPN, 393 F.3d 1068, 1076-77 (9th Cir. 2005). Though the Atlas
account agreement is not attached to the Complaint or the
motion to dismiss, it is attached to the motion for preliminary
injunction. (See Declaration of Jeffrey Gomberg (“Gomberg
Decl.”), Docket No. 8-2, Ex. 14.) Monex filed an evidentiary
objection to the agreement based on the Declarant’s purported
failure to authenticate the agreement in the declaration, but did
not otherwise contest the authenticity of the agreement. (Docket
No. 171 ¶ 3.) Therefore, the Court can consider the agreement
without converting the motion to dismiss into a motion for
summary judgment.
The agreement provides that “Borrower hereby grants to
[Monex Credit Company (‘MCC’)] a security interest in: (a) all
commodities belonging to Borrower and held for Borrower by
Farmers and Merchants Bank of Long Beach, California,
Delaware Depository Service Company, LLC, Wilmington,
1

29a
Atlas customers with open trading positions do not
take physical delivery of the metals. (Id. ¶ 39.) The
metals are stored in depositories, subject to contracts
between Monex and the depositories. (Id.) Atlas
customers may only get physical possession of the
metal if they make full payment, request actual
delivery of specific physical metals, and have Monex
ship the metals to them, a pick-up location, or the
customer’s agent. (Id. ¶ 40.) When an Atlas customer
opens a long position, Monex transfers the customer
ownership of all the metals underlying his position.
(Id. ¶ 41.) The CFTC asserts that this transfer is just
a book-entry in Monex’s records because it can close
out the customer’s position at any time in its sole
discretion, at a price of its choosing, and without
notice. (Id.) When customers open a short position,
Monex claims that it loans the customer metals that
the customer immediately sells back to Monex.
(Id. ¶ 42.) The CFTC also argues that this purported
transfer is just a book-entry in Monex’s records. (Id.)
The CFTC filed suit against Defendants alleging
four causes of action for (1) off-exchange transactions
in violation of CEA § 4(a), 7 U.S.C. § 6(a); (2) fraud in
violation of CEA § 4b(a)(2)(A), 7 U.S.C. § 6b(a)(2)(A),
Delaware or any other bailee or bailees substituted by MCC
(such bailees are hereinafter referred to individually and
collectively as ‘Bank’), either directly or in other depositories; (b)
all commodities or contractual rights in which Borrower has an
interest which shall hereafter be delivered to or come into the
possession, custody or control of Bank, [Monex Deposit Company
(‘MDC’)] or MCC in any manner or for any purpose; (c) all cash
deposited with MCC or MDC by or for Borrower; and (d) all
Borrower’s accounts and debts with MCC. Bank may hold or
transfer such property (the ‘Collateral’) to any facility within its
control.” (Gomberg Decl., Docket No. 8-2, Ex. 14 at 22.)

30a
(C); (3) fraud in violation of CEA § 6(c)(1) and
Regulation 180.1(a)(1)-(3), 7 U.S.C. § 9(1) and 17
C.F.R. § 180(a)(1)-(3); and (4) violation of CEA § 4d for
failure to register with respect to financed
transactions.
II. DISCUSSION
A.
1.

Motion to dismiss pursuant to Rule
12(b)(6)
Legal Standard

Under Rule 12(b)(6), a defendant may move to
dismiss for failure to state a claim upon which relief
can be granted. Federal Rule of Civil Procedure 8(a)
requires that a complaint contain “a short and plain
statement of the claim showing that the pleader is
entitled to relief.” Fed. R. Civ. P. 8(a)(2). A plaintiff
must state “enough facts to state a claim to relief that
is plausible on its face.” Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007). A claim has “facial
plausibility” if the plaintiff pleads facts that “allow[]
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
In resolving a Rule 12(b)(6) motion under Twombly,
the Court must follow a two-pronged approach. First,
the Court must accept all well-pleaded factual
allegations as true, but “[t]hreadbare recitals of the
elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Iqbal, 556 U.S.
at 678. Second, assuming the veracity of well-pleaded
factual allegations, the Court must “determine
whether they plausibly give rise to an entitlement to

31a
relief.” Id. at 679. This determination is contextspecific, requiring the Court to draw on its experience
and common sense, but there is no plausibility “where
the well-pleaded facts do not permit the court to infer
more than the mere possibility of misconduct.” Id. For
purposes of ruling on a Rule 12(b)(6) motion, the court
must “accept factual allegations in the complaint as
true and construe the pleadings in the light most
favorable to the nonmoving party.” Manzarek v. St.
Paul Fire & Marine Ins. Co., 519 F.3d 1025, 1031 (9th
Cir. 2008). However, courts “are not bound to accept
as true a legal conclusion couched as a factual
allegation.” Iqbal, 556 U.S. at 678. (quoting Twombly,
550 U.S. at 555).
Under Federal Rule of Civil Procedure 9(b), a
plaintiff must plead each element of a fraud claim
with particularity, i.e., the plaintiff “must set forth
more than the neutral facts necessary to identify the
transaction.” Cooper v. Pickett, 137 F.3d 616, 625 (9th
Cir. 1997) (emphasis in original) (quoting In re
GlenFed, Inc. Sec. Litig., 42 F.3d 1541, 1548 (9th Cir.
1994)). A fraud claim must be accompanied by “the
who, what, when, where, and how” of the fraudulent
conduct charged. Vess v. Ciba-Geigy Corp. USA, 317
F.3d 1097, 1106 (9th Cir. 2003) (quoting Cooper, 137
F.3d at 627). “A pleading is sufficient under rule 9(b)
if it identifies the circumstances constituting fraud so
that a defendant can prepare an adequate answer
from the allegations.” Moore v. Kayport Package
Express, Inc., 885 F.2d 531, 540 (9th Cir. 1989).
Statements of the time, place, and nature of the
alleged fraudulent activities are sufficient, but mere
conclusory allegations of fraud are not. Id.

32a
2.

The Actual Delivery Exception

The Dodd-Frank Wall Street Reform and Consumer
Protection Act, Pub. L. No. 111-203, § 742, 124 Stat.
1376
(2010)
(“Dodd-Frank”),
expanded
the
enforcement authority of the CFTC. CFTC v. Hunter
Wise Commodities, LLC, 749 F.3d 967, 970 (11th Cir.
2014). Relevant to the present action, Dodd-Frank
added CEA § 2(c)(2)(D) (the “Retail Commodity
Provision”), which extended the scope of CEA §§ 4(a),
4(b), 4b to apply to covered “retail commodity
transactions,” as if they were contracts of sale of a
commodity for future delivery, unless the transactions
resulted in “actual delivery” within 28 days (the
“Actual Delivery Exception”). 7 U.S.C. § 2(c)(D);
CFTC v. Worth Grp., Inc., No. 13-80796-CIV, 2014 WL
11350233, at *1 (S.D. Fla. Oct. 27, 2014). Only retail
commodity transactions “entered into, or offered (even
if not entered into), on a leveraged or margined basis,
or financed by the offeror, the counterparty, or a
person acting in concert with the offeror or
counterparty on a similar basis” fall within this
authority. 7 U.S.C. § 2(c)(2)(D)(i)(II). The CEA does
not otherwise define the term “actual delivery” in the
statute. Worth, 2014 WL 11350233, at *1; Hunter
Wise, 749 F.3d at 978 (citing 7 U.S.C. § 1(a)).
Defendants argue that the CFTC lacks regulatory
jurisdiction over this case pursuant to the Actual
Delivery Exception.2 (Mem. re MTD, Docket No. 41-1
The parties debate whether the Exception is an exception or
an exclusion. The CFTC argues that it is an exception to its
jurisdiction and, therefore, Defendants bear the burden of
establishing that the exception applies. (Opp’n to MTD, Docket
No. 164 at 4-6.) Defendants argue that it is an exclusion,
2

33a
at 20.) Relying on the CFTC’s own final interpretation
of the Exception, see Retail Commodity Transactions
Under Commodity Exch. Act, 78 Fed. Reg. 52426
(Aug. 23, 2013), and the Eleventh Circuit’s
construction of “actual delivery,” see Hunter Wise,
749 F.3d at 978, Defendants argue that “leveraged
precious metals transactions fall outside of the scope
of the CFTC’s authority if: (1) they result in the
physical delivery of the purchased metals to an
independent depository; and (2) the seller has
transferred title to all purchased metals (including
leveraged metals) to the customer.” (Mem. re MTD,
Docket No. 41-1 at 23 (emphasis in original).) Also
relying on Hunter Wise, the CFTC argues that “actual
delivery” only occurs once there has been a transfer of
possession of and control over the purchased
commodities. (Opp’n to MTD, Docket No. 164 at 6.)
The Eleventh Circuit is the only circuit to have
analyzed the meaning of “actual delivery” in the
context of the Exception. Applying the “ordinary
meaning of the term,” the court defined “delivery” to
mean “‘[t]he formal act of transferring something’; it
denotes a transfer of possession and control.” Hunter
Wise, 749 F.3d at 978 (quoting Black’s Law Dictionary
494 (9th ed. 2009)). Further, it concluded that
“‘[a]ctual delivery’ denotes ‘[t]he act of giving real and
immediate possession to the buyer or the buyer’s
agent.’ ‘Actual’ is that which ‘exist[s] in fact’ and is
meaning that the CFTC bears the burden of proving that the
exception does not apply. (Mem. re MTD, Docket No. 41-1 at 2425.) The Court declines to resolve this argument because,
regardless of who bears the burden, Defendants show that the
Actual Delivery Exception precludes the application of §§ 4, 4b,
and 4d to Defendants’ conduct.

34a
‘real,’ rather than constructive.” Id. at 979 (citations
omitted). The court’s holding does not require that a
buyer take actual possession and control of the
purchased commodities; it requires instead that the
possession and control of commodities that exist in
fact be transferred from the seller. Id. (“If ‘actual
delivery’ means anything, it means something other
than simply ‘delivery.’”) But the court did not “define
the precise boundaries of ‘actual delivery’” because it
found that the Exception clearly did not apply to the
“sort of constructive delivery” at issue in the case. Id.
The defendant in Hunter Wise “did not own a
sufficient inventory of metals to cover its liabilities to
the retail customers.” Id. at 979-80. Rather than
possessing or controlling an inventory of metals from
which it could deliver purchased metals to retail
customers, the defendant had margin trading
accounts with its suppliers that were subject to
minimum margin requirements and margin calls. Id.
at 980. Accordingly, the court found the defendant
had nothing to deliver, actually or constructively. Id.
at 979.
Defendants argue that the CFTC’s own
interpretation does not require physical delivery to
the customer. (Mem. re MTD, Docket No. 41-1 at 21.)
On December 14, 2011, the CFTC issued an
interpretation and request for public comments
regarding the meaning of “actual delivery.” Retail
Commodity Transactions Under Commodity Exch.
Act, 76 Fed. Reg. 77670 (Dec. 14, 2011). The CFTC
indicated that it would consider “ownership,
possession, title, and physical location of the
commodity purchased or sold, both before and after
execution of the agreement, contract, or transaction;

35a
the nature of the relationship between the buyer,
seller, and possessor of the commodity purchased or
sold; and the manner in which the purchase or sale is
recorded and completed” to determine whether actual
delivery had occurred. Id. at 77672. By way of
example, the CFTC provided that “[a]ctual delivery
will have occurred if, within 28 days, the seller has
physically delivered the entire quantity of the
commodity purchased by the buyer, including any
portion of the purchase made using leverage, margin,
or financing, whether in specifically segregated or
fungible bulk form, into the possession of a depository
other than the seller and its parent company,
partners, agents, and other affiliates.” Id.
Additionally, the CFTC stated that “an agreement,
contract, or transaction that results in ‘physical
delivery’ within the meaning of section 1.04(a)(2)(i)(iii) of the Model State Commodity Code [“Model
Code”3] would ordinarily result in ‘actual delivery’
under new CEA section 2(c)(2)(D)(ii)(III)(aa), absent
other evidence indicating that the purported delivery
is a sham.” Id. at 77672 n.25. The factors and the
example were adopted by the CFTC in its final
interpretation issued in 2013. 78 Fed. Reg. at 52428.
Though the Eleventh Circuit did not rely on the final
interpretation in construing “actual delivery,” it found
that the CFTC’s guidance comported with its

Under the Model Code, physical delivery “shall be deemed to
have occurred if, within the 28-day period, the quantity of
precious metals or foreign currencies purchased by the full or
partial payment is actually physically delivered (whether in
specifically segregated or fungible bulk form) into the possession
of a depository (other than the seller).” Cal. Corp. Code § 29531(b)
(California’s enactment of the Model Code).
3

36a
construction of the term. Hunter Wise, 749 F.3d at
980.
The CFTC argues that Monex’s alleged conduct does
not fall within the example provided in its own
interpretation because the purported delivery is a
“sham.” (Opp’n to MTD, Docket No. 164 at 11.) It
argues that the Complaint alleges the following facts
showing that Monex’s delivery is in fact a sham:
customer positions can be liquidated any time
and in Monex’s sole discretion, without notice
to customers (Compl. ¶¶ 32-33); more than
3,000 leveraged Atlas accounts were subject to
a margin call and at least 1,850 had trading
positions force-liquidated between July 2011
and March 2017 (id. ¶ 33); the terms of the
Atlas account agreement and Monex’s
agreements with its depositories deprive
customers of all control and authority over any
metals that underlie their trading positions
(id. ¶¶ 38-39); and Atlas customers with open
trading positions do not possess any precious
metals as a result of Atlas transactions (id.
¶¶ 39-40).
(Id.) However, all of these allegations relate to
Monex’s business model of selling commodities on a
leveraged basis.4 Sections 4(a), 4(b), and 4b only apply
to covered retail commodity transactions, which must
be entered into or offered on a leveraged or margined
basis, or financed by the offeror. 7 U.S.C.
Significantly, there are no allegations that Monex exercises
the rights granted by virtue of its secured position in any manner
other than the contract provides.
4

37a
§ 2(c)(2)(D)(i)(II).
If this conduct alone negated
“actual delivery,” “every financed transaction would
violate Dodd-Frank.” Worth, 2014 WL 11350233, at
*2. The Court can conceive of no plausible leveraged
retail transaction of fungible commodities that would
not involve at least some of the same alleged practices.
Thus, if the Court were to adopt the CFTC’s
construction, the result would be to eliminate the
Actual Delivery Exception from the CEA.
See
E.E.O.C. v. Chicago Club, 86 F.3d 1423, 1426 (7th Cir.
1996) (refusing to endorse the Equal Employment
Opportunity
Commission’s
“eviscerating
interpretation” of “bona fide private membership club”
when doing so would mean no organization would
satisfy the statutory definition). This Court has no
basis to do so. See Corley v. United States, 556 U.S.
303, 314 (2009) (“The Government’s reading is thus at
odds with one of the most basic interpretive canons,
that ‘[a] statute should be construed so that effect is
given to all its provisions, so that no part will be
inoperative or superfluous, void or insignificant . . . .’”
(quoting Hibbs v. Winn, 542 U.S. 88, 101 (2004)).
Finally, the CFTC argues that the transfer of title
to metals held at a third-party depository does not
constitute “actual delivery.” (Opp’n re MTD, Docket
No. 164 at 7.) The Ninth Circuit’s decision in CFTC v.
Noble Metals Int’l, 67 F.3d 766, 772 (9th Cir. 1995), a
pre-Dodd-Frank case, concerned the distinction
between a futures contract and a cash forward
contract under the CEA. The CEA excluded cash
forward contracts from CFTC jurisdiction if both
parties to the contract contemplated and intended
future delivery of the actual commodity. Id. The
defendants argued that their contracts were cash

38a
forward contracts and satisfied the delivery
requirement by transferring title to investors. Id.
Instead of delivering the purchased metals to their
customers, the defendants arranged for third-party
depositories to take delivery on their behalf. Id. at
769. But no metal would change hands. Id. Instead
of taking delivery from the third-party, customers
would contract for the third-party to receive, and then
sell, the metal. Id. The third-party sold the metal
back to the defendants in a paper transaction. Id.
Under this scheme, the court found that there was “no
legitimate expectation” that the defendants’
customers would take actual delivery. Id. at 773.
Noble Metals is distinguishable for two primary
reasons. First, and most notably, it predates DoddFrank. The court did not construe “actual delivery”
within Dodd-Frank’s statutory framework. Instead,
the court assessed whether the defendants could take
advantage of the cash forward exclusion to the CEA.
Second, the court found that the defendants’ contracts
did not contemplate “actual delivery” of the purchased
metals because they merely transferred title to the
metals. Id. Though not discussed by the Ninth
Circuit, Defendants did not have enough metals on
hand to satisfy their delivery obligations. (Request for
Judicial Notice5 (“RJN”), Docket No. 189-4, Ex. 5 at
31; see also RJN, Docket No. 189-2, Ex. 4 at 32.) Even
if this Court were to apply the definition of “delivery”
applicable to the cash forward contract exclusion,
Monex’s contracts differ from the Noble Metals
defendants’ contracts. Regardless, the Court is not
Where cited, the Court impliedly deems judicial notice
appropriate under Federal Rule of Evidence 201 and takes
judicial notice of the requested documents.
5

39a
persuaded that the definition of “delivery” applicable
to the cash forward contract exclusion similarly
applies to the Actual Delivery Exception.
Moreover, the legislative history of Dodd-Frank
supports the Court’s conclusion that Congress did not
intend to exclude the sort of conduct the CFTC alleges
Monex engaged in from the ambit of the Actual
Delivery Exception. The Senate adopted an earlier
version of § 2(c)(2)(D) that excluded from the
definition of “actual delivery” any “delivery to a third
party in a financed transaction in which the
commodity is held as collateral.” H.R. 4173, 111th
Cong., 2nd Sess. § 742(2)(D)(v) (May 20, 2010). The
final bill omits this exclusion. “As a general canon of
statutory construction, where the final version of a
statute deletes language contained in an earlier draft,
a court may presume that the earlier draft is
inconsistent with ultimate congressional intentions.”
In re Town & Country Home Nursing Servs., Inc., 963
F.2d 1146, 1151 (9th Cir. 1991). The Court therefore
presumes that Congress did not intend to exclude the
conduct alleged against Monex — the actual delivery
of precious metals in financed transactions where the
metals are held as collateral by a depository — from
the definition of “actual delivery.”6

The CFTC does not distinguish between short and long
positions in describing how the metals are stored by depositories.
(See, e.g., Compl. Docket No. 1 ¶¶ 39, 41-42 (“Atlas customers
with open trading positions do not take physical delivery of the
precious metals that underlie their trading positions. Rather, the
metals are stored in depositories subject to contracts between
Monex and the depositories which provide Monex with exclusive
authority to instruct the depositories as to the disposition of
metals . . . When an Atlas customer opens a long position, Monex
6

40a
In sum, the Court finds that, based on the Eleventh
Circuit’s construction of “actual delivery” in Hunter
Wise, the CFTC’s own final interpretation, and the
legislative history of the Dodd-Frank amendments to
the CEA, Monex’s alleged practices of delivering
precious metals to independent depositories within
28-days of their purchase by retail customers on
margin falls within the Actual Delivery Exception to
the CFTC’s authority. Accordingly, the Court grants

claims to transfer to the customer ownership of all of the metals
underlying his position, including the financed portion of the
position. This ‘transfer,’ however, is in reality just a book-entry
in Monex’s records. . . . In the context of a short position, Monex
claims to loan the customer metals that the customer
immediately sells back to Monex. As with a long position, the
purported transfer of metals is in reality a book-entry in Monex’s
records that Monex can close out at any time in its sole discretion
and at a price of Monex’s choosing.”)
There are two reasons for treating long transactions and short
transactions similarly. First, by virtue of the CFTC’s
investigations in 1987 and 1998, Congress was aware of the
phenomenon of short sales in commodities in the years before
Dodd-Frank was adopted. (See Declaration of Gregory Walker
(“Walker Decl.”), Docket No. 169 ¶¶ 12-13.) Second, and more
critical to the goal of the Actual Delivery Exclusion, the
commodities are actually there. There is no contention that
Monex does not in fact possess the commodity which the
customer borrows, and then sells. The investor takes title, and
the title is transferred to Monex by virtue of the customer’s sale.
(L. Carabini Depo., Docket No. 9-2, Ex. 14 at 97-98.) Louis
Carabini points out that the borrower need not sell the
commodity, but could maintain it, presumably in a depository.
(Id.) The analysis would be different if the commodities borrowed
and sold were non-existent. Moreover, possession is no longer
relevant when the customer completes the short transaction
since the purpose of a short transaction is to sell the commodity
and divest the investor of ownership.

41a
Defendants’ motion to dismiss counts one, two, and
four7 of the Complaint.
3.

The Actual Delivery Exception does not bar
enforcement of CEA § 6(c)(1) against Monex.

Monex argues that the Actual Delivery Exception
divests the CFTC of jurisdiction over all claims in the
Complaint. (Mem. re MTD, Docket No. 41-1 at 25.)
The CFTC contends that it had broad anti-fraud
enforcement authority, independent of § 2(c)(2)(D),
and therefore § 6(c)(1) nevertheless applies to Monex.
(Opp’n to MTD, Docket No. 164 at 19.)
The Court’s “first step in interpreting a statute is to
determine whether the language at issue has a plain
and unambiguous meaning with regard to the
particular dispute in the case. [The Court’s] inquiry
must cease if the statutory language is unambiguous
and ‘the statutory scheme is coherent and consistent.’”
Robinson v. Shell Oil Co., 519 U.S. 337, 340 (1997)
(citation omitted). Section 2(a)(1)(A) provides that the
CFTC “shall have exclusive jurisdiction, except to the
extent otherwise provided in . . . subsections (c) and
(f).” 7 U.S.C. § 2(a)(1)(A).
Section 2(c)(2)(D)(ii)
provides that “[s]ections 6(a), 6(b), and 6b of this title
apply to any agreement, contract or transaction
described in clause (i), as if the agreement, contract,
CEA § 4d(a) applies only to a “futures commission merchant.”
7 U.S.C. § 6d(a). Section 1a(28)(A)(i)(I)(aa)(DD) defines the term
“futures commission merchant” to mean an entity that is
engaged in “any agreement, contract, or transaction described
in . . . section
2(c)(2)(D)(i)
of
this
title.”
7
U.S.C.
§ 1a(28)(A)(i)(I)(aa)(DD). Because the transactions the CFTC
alleges Monex engaged are excluded from § 2(c)(2)(D)(i) by the
Actual Delivery Exception, § 4d(a) does not apply to Defendants.
7

42a
or transaction was a contract of sale of a commodity
for future delivery.” Id. § 2(c)(2)(D)(iii). Clause (i)
describes the retail commodity transactions covered
by “this subparagraph,” excepting those transactions
described in clause (ii). Id. § 2(c)(2)(D)(i). As noted
above, clause (ii) in turn provides that “[t]his
subparagraph shall not apply to . . . a contract of
sale . . . results in actual delivery within 28 days.” Id.
§ 2(c)(2)(D)(ii). Thus, the plain language of the
subparagraph provides the CFTC with exclusive
jurisdiction
over
covered
retail
commodity
transactions to enforce §§ 4(a), 4(b), and 4b of the
CEA, 7 U.S.C. §§ 6(a), 6(b), and 6b.
Monex argues that CFTC jurisdiction comes only
from § 2, and the CFTC cannot rely on § 6(c)(1)
without a jurisdictional grant from § 2. (Reply re
MTD, Docket No. 180 at 12.) Section 2 provides the
CFTC with exclusive jurisdiction over certain
accounts, agreements, and transactions, and divests
the CFTC of authority over others, but does not
otherwise grant the CFTC with jurisdiction to enforce
the provisions of the CEA. See id. § 2(a)(1)(A).
Monex’s reliance on CFTC v. White Pine Trust Corp.,
574 F.3d 1219 (9th Cir. 2009), to argue otherwise, is
misplaced. (See Reply re MTD., Docket No. 180 at 12.)
White Pine concerned foreign currency options
trading accounts and a different section of the CEA,
§ 4c(b), 7 U.S.C. § 6c(b). 574 F.3d at 1223. Section
4c(b) only applies to “transactions involving any
commodity regulated under this chapter.” 7 U.S.C.
§ 6c(b). The Ninth Circuit construed that limitation
to exclude transactions exempted from the CEA’s
coverage by § 2(c). White Pines, F.3d at 1223. Section
2(c)(1) provides that “[e]xcept as otherwise provided in

43a
paragraph (2), nothing in this chapter . . . governs or
applies to an agreement, contract, or transaction in
foreign currency.” 7 U.S.C. § 2(c)(1). However,
paragraph (2) restored jurisdiction over certain
foreign currency transactions. Id. § 2(c)(2)(B). The
court ultimately concluded that neither § 2(c)(2)(B)
nor § 6c(b) granted the CFTC jurisdiction over the
trading accounts at issue in the case. White Pines,
F.3d at 1227.
The jurisdictional provision at issue in White Pines
is not at issue here. Section 2(c)(1) limits the types of
transactions over which the CFTC has jurisdiction,
but it does not exclude retail precious metal
transactions. See 7 U.S.C. § 2(c)(1). Therefore, the
Court need not look to §§ 2(c)(2)(A) or (B) to determine
whether or not the conduct at issue here is
nevertheless within the CFTC’s jurisdiction. Instead,
§ 2(c)(2)(D) merely specifies, irrespective of the
exclusions described in § 2(c)(1), which retail
commodity transactions to which §§ 4(a), 4(b), and 4b
apply, “as if [it was] a contract of sale of a commodity
for future delivery.” Id. § 2(c)(2)(D)(iii).
Moreover, unlike § 4c, § 6(c)(1) does not limit its
enforcement to “any transaction involving any
commodity regulated under this chapter.” By its plain
language, § 6(c)(1) applies broadly “to any swap, or a
contract of sale of any commodity in interstate
commerce.” 7 U.S.C. § 9(1). “It is well established that
‘when the statute’s language is plain, the sole function
of the courts—at least where the disposition required
by the text is not absurd—is to enforce it according to
its terms.’” Lamie v. U.S. Tr., 540 U.S. 526, 534 (2004)
(quoting Hartford Underwriters Ins. Co. v. Union

44a
Planters Bank, N. A., 530 U.S. 1, 6 (2000)). Section
6(c)(1) provides that “[i]t shall be unlawful for any
person, directly or indirectly, to use or employ, or
attempt to use or employ, in connection with any
swap, or a contract of sale of any commodity in
interstate commerce, or for future delivery on or
subject to the rules of any registered entity, any
manipulative or deceptive device or contrivance, in
contravention of such rules and regulations as the
Commission shall promulgate.” Id. Thus, it is not
similarly limited to transactions regulated by the
CEA.
Monex argues that the rule of lenity mandates a
narrow reading of the CFTC’s authority in this case.
(Mem. re MTD, Docket No. 41-1 at 26.) However, the
rule only applies where “after consulting traditional
canons of statutory construction, [the Court] is left
with an ambiguous statute.” Burgess v. United States,
553 U.S. 124, 135 (2008) (quoting United States v.
Shabani, 513 U.S. 10, 17 (1994)). Section 6(c)(1)
unambiguously applies broadly to the use or
attempted use of any manipulative or deceptive device
“in connection with any swap, or a contract of sale of
any commodity in interstate commerce.”
4.

Section 6(c)(1) only prohibits fraud-based
market manipulation.

Monex argues that, regardless of the limitations
imposed by the Actual Delivery Exception, § 6(c)(1)
only confers anti-fraud jurisdiction where a particular
commodity transaction manipulates or potentially
manipulates the derivatives market. (See Mem. re
MTD, Docket No. 41-1 at 27; Opp’n to Mot. for PI,
Docket No. 166 at 28.) The CFTC argues that § 6(c)(1)

45a
is not limited to futures market contracts and applies
to retail commodities transactions with or without
market manipulation. (Opp’n to MTD, Docket No. 164
at 23.)
Courts must defer to an agency’s construction of a
statute it administers if Congress has not “spoken
directly to the precise question at issue” and the
agency’s construction of the statute is “permissible.”
Chevron U.S.A. Inc. v. Natural Res. Def. Council, Inc.,
467 U.S. 837, 842-43 (1984). However, if “Congress
has directly spoken to the precise question at issue,”
courts “must give effect to the unambiguously
expressed intent of Congress.” Id. Courts apply
“traditional tools of statutory construction” to
ascertain whether Congress expressed such an intent.
Id. at 843 n.9. Additionally, regulations enacted
pursuant an express delegation of authority “to
elucidate a specific provision of the statute by
regulation . . . are given controlling weight unless they
are arbitrary, capricious, or manifestly contrary to
statute.” Id. at 843-44. Therefore, the Court must first
decide whether the CEA unambiguously forecloses
the CFTC’s interpretation, and, if not, whether the
interpretation is otherwise an impermissible
construction of the CEA. Id. at 843; Barnhart v.
Walton, 535 U.S. 212, 218 (2002).
To determine the meaning of a statutory provision,
courts “look first to its language, giving the words
used their ordinary meaning.” Artis v. District of
Columbia, 138 S. Ct. 594, 603 (2018) (quoting Moskal
v. United States, 498 U.S. 103, 108 (1990)). Section
6(c)(1),
titled
the
“[p]rohibition
against

46a
manipulation,”8 makes it unlawful to use, “in
connection with any swap, or a contract of sale of any
commodity in interstate commerce, . . . any
manipulative or deceptive device or contrivance, in
contravention of such rules and regulations as the
Commission shall promulgate.” 7 U.S.C. § 9(1)
(emphasis added). Terms connected by a disjunctive
must ordinarily be given separate meanings. Reiter
v. Sonotone Corp., 442 U.S. 330, 339 (1979). Pursuant
to that rule, the plain language of § 6(c)(1) suggests
that Congress intended to prohibit either
manipulative or deceptive conduct. However, the rule
is not steadfast. See De Sylva v. Ballentine, 351 U.S.
570, 573 (1956) (noting that “the word ‘or’ is often used
as a careless substitute for the word ‘and’; that is, it is
often used in phrases where ‘and’ would express the
thought with greater clarity”). Another district court
interpreting § 6(c)(1) has rejected the argument that
its use of “or” necessarily means that the section bars
two distinct types of conduct. CFTC v. Kraft Foods
Grp., Inc. (“Kraft I”), 153 F. Supp. 3d 996, 1010 (N.D.
Ill. 2015) (holding that the §6(c)(1) barred only
fraudulent manipulation, not manipulation in the
absence of fraud).9 The title of § 6(c)(1) sheds light on
The section of Dodd-Frank adding these amendments is titled
“Anti-Manipulation Authority.” § 753, 124 Stat. at 1750; see
Almendarez-Torres v. United States, 523 U.S. 224, 234 (1998)
(noting that titles of statutes and section headings are tools
available for statutory construction).
9 The CFTC suggests that a subsequent order in this case
undermines this construction. (Reply re Mot. for PI, Docket No.
177 at 18.) In that order, the district court explained that Rule
10b-5 claim requires proof of either deception or manipulation.
CFTC v. Kraft Foods Grp., Inc. (“Kraft II”), 195 F. Supp. 3d 996,
1006 (N.D. Ill. 2016). The effect of that requirement was that
there was a class of manipulation claims that did not require
8

47a
whether the Court should construe “or” in the
disjunctive. See Bhd. of R. R. Trainmen v. Baltimore
& O. R. Co., 331 U.S. 519, 529 (1947) (concluding that
section headings are may be used as tools for “the
resolution of a doubt”).
Section 6(c) is titled
“Prohibition regarding manipulation and false
information.” 7 U.S.C. § 9. While § 6(c)(1) is the
“Prohibition against manipulation,” § 6(c)(2) is the
“Prohibition regarding false information,” and
§ 6(c)(3) is entitled “Other manipulation.” These
headings imply that § 6(c)(1) and § 6(c)(3) concern
forms of market manipulation and § 6(c)(2) alone
concerns false information. Section 6(c)(2) prohibits
making false or misleading statements to the CFTC,
but does not otherwise prohibit fraudulent conduct.
While “the title of a statute and the heading of a
section cannot limit the plain meaning of the text,”
these headings suggest that the court should construe
the prohibition on the use of “manipulative or
deceptive device[s] or contrivance[s]” to require both
manipulative and deceptive conduct, not one or the
other. See Bhd. of R. R. Trainmen, 331 U.S. at 52829.

deception or misrepresentation. Id. While the court noted that
“most forms of manipulation involve deception in one form or
another,” in the securities context, market manipulation claim in
do not “always require an explicit misrepresentation.” Id. at 1007
(quoting Ploss v. Kraft Foods Grp., Inc., 197 F. Supp. 3d 1037,
1050-51 (N.D. Ill. 2016)). This does not defeat the Court’s earlier
conclusion that “‘manipulative’ connotes ‘intentional or willful
conduct designed to deceive or defraud investors by controlling or
artificially affecting the price of securities.’” Kraft I, 153 F. Supp.
3d at 1009 (quoting Ernst & Ernst v. Hochfelder, 425 U.S. 185,
199 (1976)) (emphasis in original).

48a
The rule against surplusage also supports
interpreting “manipulative or deceptive” to require
both manipulative and deceptive conduct. “It is a
‘fundamental canon of statutory construction that the
words of a statute must be read in their context and
with a view to their place in the overall statutory
scheme.’” FDA v. Brown & Williamson Tobacco Corp.,
529 U.S. 120, 133 (2000) (quoting Davis v. Michigan
Dep’t of Treasury, 489 U.S. 803, 809 (1989)). Section
4b already prohibits fraud in covered retail
commodity transactions. 7 U.S.C. §§ 2(c)(2)(D)(iii),
6b(a)(2)(A) (making it unlawful “for any person, in or
in connection with an order to make, or the making of,
any contract of sale of any commodity for future
delivery or swap,. . . to cheat or defraud or attempt to
cheat or defraud the other person”). The Actual
Delivery Exception exempts retail commodity
transactions that result in actual delivery within 28
days from the application of § 4b.
Id.
§ 2(c)(2)(D)(ii)(III)(aa). If the Court were to construe
§6(c)(1) to prohibit all fraud made in connection with
any swap, or contract of sale of any commodity in
interstate commerce, it would necessarily cover all
retail commodity transactions, including those that
result in actual delivery within 28 days. Not only
would such a construction render § 4b superfluous, it
would also eliminate the Actual Delivery Exception.
See Corley, 556 U.S. at 314. Moreover, it would make
§ 6(c)(3), which already prohibits the manipulation of
the price of any swap or commodity in interstate
commerce, redundant. The Court may not construe
§ 6(c)(1) to render any other section of the CEA
redundant or inoperative. Rather, the Court must
“fit, if possible, all parts [of the CEA] into an
harmonious whole.” Brown, 529 U.S. at 133 (quoting

49a
FTC v. Mandel Brothers, Inc., 359 U.S. 385, 389
(1959)). Construing § 6(c)(1) to prohibit fraudulent
conduct alone would violate that basic principle.10
However, yet another interpretive tool clashes with
the rule against superfluity in this instance. “[C]ourts
generally interpret similar language in different
statutes in a like manner when the two statutes
address a similar subject matter.” United States v.
Novak, 476 F.3d 1041, 1051 (9th Cir. 2007) (en banc).
Section 10(b) of the Securities Exchange Act (“SEA”)
similarly prohibits “any manipulative or deceptive
device or contrivance” used “in connection with the
purchase or sale of any security registered on a
national securities exchange or any security not so
registered.” 15 U.S.C. § 78j(b). Though the Supreme
Court has held that the SEA “must not be construed
so broadly as to convert every common-law fraud that
happens to involve securities into a violation of
§ 10(b),” it has also explained that “the statute should
be ‘construed not technically and restrictively, but
flexibly to effectuate its remedial purposes.’” S.E.C. v.
Zandford, 535 U.S. 813, 819-20 (2002) (citations
omitted).
Moreover, the Supreme Court has
“recognized that the interest in ‘preserving the
integrity of the securities markets’ was one of the
purposes animating the [SEA],” it has “rejected the
notion that § 10(b) is limited to serving that objective
The Court notes that the rule against surplusage is “not
absolute.” Lamie, 540 U.S. at 536. However, it generally yields
only when words are rejected as “inadvertently inserted” or
“repugnant to the rest of the statute.” Chickasaw Nation v.
United States, 534 U.S. 84, 94 (2001). The CFTC does not point
to any examples of “inartful drafting” in Dodd-Frank, which
might lead this Court to question the utility of the rule in this
instance. See King v. Burwell, 135 S. Ct. 2480, 2483 (2015).
10

50a
alone.” Id. at 821-22. The Securities Exchange
Commission (“SEC”) routinely uses §10(b) and Rule
10b-5 to prosecute fraud in connection with the
purchase or sale of securities. See, e.g., id. at 825
(holding that allegations of a fraudulent scheme alone
adequately stated a claim for violation of § 10(b)).
The legislative history of § 6(c)(1) clarifies this
ostensible conflict. Senator Cantwell introduced
section § 6(c)(1) as an amendment to the Senate’s
version of Dodd-Frank. 156 Cong. Rec. S3099-100
(daily ed. May 4, 2010). Introducing the amendment,
Senator Cantwell emphasized that current law made
it very difficult for the CFTC to prosecute market
manipulation cases because it required the CFTC to
prove “specific intent” to manipulate. (RJN, Docket
No. 172-1, Ex. 4 at S3348.) She noted that the CFTC
had only successfully prosecuted a single case of
manipulation. (Id.) Senator Cantwell explained that
the amendment would give the CFTC the same
“antimanipulation standard” as the Securities
Exchange Commission (“SEC”), which only requires a
showing of recklessness. (Id.) She noted that the
language of § 6(c)(1) closely tracks § 10(b) because
“Federal case law is clear that when the Congress uses
language identical to that used in another statute,
Congress intended for the courts and the Commission
to interpret the new authority in a similar manner.”
(Id.) However, she went on to note that the SEC’s
manipulation authority is only intended to cause
“those who attempt to affect the market or prices by
artificial means unrelated to the natural forces of
supply and demand.” (Id.) And she noted that
Congress recently granted the same antimanipulation
authority to the Federal Energy Regulatory

51a
Commission (“FERC”) “as a result of the Enron
market manipulation,” which FERC had used to bring
“enforcement actions against manipulation.” (Id.)
Consistent with Senator Cantwell’s remarks, Senator
Lincoln, the then-Chairman of the Senate Committee
on Agriculture, explained that § 753 “adds a new antimanipulation provision to the [CEA] addressing
fraud-based manipulation” and that the “new
enforcement authority being provided to the CFTC
supplements, and does not supplant, its existing antimanipulation authority.”11 (RJN, Docket No. 181-1,
Ex. 2 at S5920.)
Nowhere does the legislative history contemplate
extending CFTC’s authority under § 6(c)(1) to allow it
to combat fraud absent market manipulation.
Senator Cantwell’s references to § 10(b) make clear
that Congress only intended to lower the scienter
standard to recklessness, not adopt wholesale the full
scope of enforcement available under § 10(b). (RJN,
Docket No. 172-1, Ex. 4 at S3348.)
Because § 6(c)(1) unambiguously forecloses the
CFTC’s interpretation, the Court owes no deference to
the its interpretation of the statute. However, the
The CEA has long made it a felony for “[a]ny person to
manipulate or attempt to manipulate the price of any commodity
in interstate commerce, or for future delivery on or subject to the
rules of any registered entity, or of any swap, or to corner or
attempt to corner any such commodity or knowingly to deliver or
cause to be delivered for transmission through the mails or
interstate commerce by telegraph, telephone, wireless, or other
means of communication false or misleading or knowingly
inaccurate reports concerning crop or market information or
conditions that affect or tend to affect the price of any commodity
in interstate commerce.” 7 U.S.C. § 13(a)(2).
11

52a
CFTC’s interpretation of the statute and its
regulations is not entirely inconsistent with the
Court’s construction.
See Prohibition on the
Employment, or Attempted Employment, of
Manipulative and Deceptive Devices and Prohibition
on Price Manipulation, 76 Fed. Reg. 41398 (July 14,
2011). The CFTC focuses on footnote 37 in the
interpretation, which provides that:
By way of non-exclusive example, if an entity
employed a deceptive device to sell precious
metals to customers as a way for the customers
to speculate on the value of such commodities,
or if an entity employed a deceptive device to
sell an agricultural commodity to persons
seeking to hedge price risk in that commodity,
depending on the facts and circumstances, the
Commission would exercise its authority
against the entity under Section 6(c)(1) and
final Rule 180.1.
Id. at 41401 n. 37 (emphasis added). Though the
footnote, read in isolation, seems to cover the conduct
alleged against Monex, read in context, it is clear that
the CFTC only intended for the example to apply in
instances of market manipulation. Footnote 37
appends the following sentence:
And although CEA section 6(c)(1) and final
Rule 180.1 give the Commission broad
enforcement authority to prohibit fraud and
manipulation in connection with a contract of
sale for any commodity in interstate
commerce, the Commission expects to exercise
its authority under 6(c)(1) to cover
transactions related to the futures or swaps

53a
markets, or prices of commodities in interstate
commerce, or where the fraud or manipulation
has the potential to affect cash commodity,
futures, or swaps markets or participants in
these markets.
Id. at 41401 (emphasis added). The interpretation
goes on to state that “[t]his application of the final
Rule respects the jurisdiction that Congress conferred
upon the Commission and fulfills its core mission and
the purposes of the Act to protect market participants
and promote market integrity.” Id.
Read in its entirety, the CEA unambiguously
forecloses the application of § 6(c)(1) in the absence of
actual
or
potential
market
manipulation.12
Fundamentally, the Court is tasked with interpreting
§ 6(c)(1) in a “holistic” manner. United Sav. Ass’n of
Texas v. Timbers of Inwood Forest Assocs., Ltd., 484
U.S. 365, 371 (1988). “A provision that may seem
ambiguous in isolation is often clarified by the
remainder of the statutory scheme.” Id. In this
instance, the only plausible interpretation of the
Dodd-Frank amendments mandate that § 4b alone
prohibits fraud and deceptive conduct, § 6(c)(1)
prohibits fraud-based manipulation, and § 6(c)(3)
Another district court recently found that the CFTC could
state a claim for violations of § 6(c)(1) and Rule 180.1 based on
allegations of fraud in connection with the sale of commodities
alone. CFTC v. McDonnell, 287 F. Supp. 3d 213, 226–27, 229–30
(E.D.N.Y. 2018). However, the main concern in that case was
whether the CFTC could regulate virtual currencies as a
commodity. See id. at 228. The pro se defendant in that case did
not raise the issue of whether § 6(c)(1) covered fraud in the
absence of market manipulation. (See Mem., CFTC v.
McDonnell, 287 F. Supp. 3d 213 (E.D.N.Y. Feb.15, 2018) (No. 18
Civ. 361), ECF No. 18-2.)
12

54a
prohibits market manipulation in the absence of
fraud.
IV. CONCLUSION
For the foregoing reasons, the Court grants
Defendants’ motion to dismiss. The Court denies the
CFTC’s motion for preliminary injunction and
Defendants’ motion to exclude as moot. The CFTC
may amend its third cause of action to address the
deficiencies identified in this order. The CFTC shall
file an amended complaint within thirty (30) days.
IT IS SO ORDERED.
Initials of Preparer

kjt

55a
APPENDIX D
§ 2. Jurisdiction of Commission; liability of
principal
for act of agent; Commodity
Futures Trading Commission; transaction
in interstate commerce
(a) Jurisdiction of Commission; Commodity
Futures Trading Commission
(1) Jurisdiction of Commission
(A) In general
The Commission shall have exclusive jurisdiction,
except to the extent otherwise provided in the Wall
Street Transparency and Accountability Act of 2010
(including an amendment made by that Act) and
subparagraphs (C), (D), and (I) of this paragraph and
subsections (c) and (f), with respect to accounts,
agreements (including any transaction which is of the
character of, or is commonly known to the trade as, an
“option”, “privilege”, “indemnity”, “bid”, “offer”, “put”,
“call”, “advance guaranty”, or “decline guaranty”), and
transactions involving swaps or contracts of sale of a
commodity for future delivery (including significant
price discovery contracts), traded or executed on a
contract market designated pursuant to section 7 of
this title or a swap execution facility pursuant to
section 7b-3 of this title or any other board of trade,
exchange, or market, and transactions subject to
regulation by the Commission pursuant to section 23
of this title. Except as hereinabove provided, nothing
contained in this section shall (I) supersede or limit
the jurisdiction at any time conferred on the
Securities and Exchange Commission or other

56a
regulatory authorities under the laws of the United
States or of any State, or (II) restrict the Securities
and Exchange Commission and such other authorities
from carrying out their duties and responsibilities in
accordance with such laws. Nothing in this section
shall supersede or limit the jurisdiction conferred on
courts of the United States or any State.
(c) Agreements, contracts, and transactions in
foreign currency, government securities,
and certain other commodities
***
(2) Commission jurisdiction
***
(D) Retail commodity transactions
(i) Applicability
Except as provided in clause (ii), this subparagraph
shall apply to any agreement, contract, or transaction
in any commodity that is—
(I) entered into with, or offered to (even if not
entered into with), a person that is not an eligible
contract participant or eligible commercial entity; and
(II) entered into, or offered (even if not entered
into), on a leveraged or margined basis, or financed by
the offeror, the counterparty, or a person acting in
concert with the offeror or counterparty on a similar
basis.

57a
(ii) Exceptions
This subparagraph shall not apply to—
(I) an agreement, contract, or transaction
described in paragraph (1) or subparagraphs1 (A), (B),
or (C), including any agreement, contract, or
transaction specifically excluded from subparagraph
(A), (B), or (C);
(II) any security;
(III) a contract of sale that—
(aa) results in actual delivery within 28 days or
such other longer period as the Commission may
determine by rule or regulation based upon the
typical commercial practice in cash or spot markets
for the commodity involved; or
(bb) creates an enforceable obligation to deliver
between a seller and a buyer that have the ability to
deliver and accept delivery, respectively, in
connection with the line of business of the seller and
buyer; or
(IV) an agreement, contract, or transaction that is
listed on a national securities exchange registered
under section 6(a) of the Securities Exchange Act of
1934 (15 U.S.C. 78f(a)); or
(V) an identified banking product, as defined in
section 27(b) of this title.

1

So in original. Probably should be “subparagraph”.

58a
(iii) Enforcement
Sections 6(a), 6(b), and 6b of this title apply to any
agreement, contract, or transaction described in
clause (i), as if the agreement, contract, or transaction
was a contract of sale of a commodity for future
delivery.
(iv) Eligible commercial entity
For purposes of this subparagraph, an agricultural
producer, packer, or handler shall be considered to be
an eligible commercial entity for any agreement,
contract, or transaction for a commodity in connection
with the line of business of the agricultural producer,
packer, or handler.
§ 9. Prohibition regarding manipulation and
false information
(1) Prohibition against manipulation
It shall be unlawful for any person, directly or
indirectly, to use or employ, or attempt to use or
employ, in connection with any swap, or a contract of
sale of any commodity in interstate commerce, or for
future delivery on or subject to the rules of any
registered entity, any manipulative or deceptive
device or contrivance, in contravention of such rules
and regulations as the Commission shall promulgate
by not later than 1 year after July 21, 2010, provided
no rule or regulation promulgated by the Commission
shall require any person to disclose to another person
nonpublic information that may be material to the
market price, rate, or level of the commodity
transaction, except as necessary to make any

59a
statement made to the other person in or in
connection with the transaction not misleading in any
material respect.
(A) Special provision for manipulation by
false reporting
Unlawful manipulation for purposes of this
paragraph shall include, but not be limited to,
delivering, or causing to be delivered for transmission
through the mails or interstate commerce, by any
means of communication whatsoever, a false or
misleading or inaccurate report concerning crop or
market information or conditions that affect or tend to
affect the price of any commodity in interstate
commerce, knowing, or acting in reckless disregard of
the fact that such report is false, misleading or
inaccurate.
(B) Effect on other law
Nothing in this paragraph shall affect, or be
construed to affect, the applicability of section 13(a)(2)
of this title.
(C) Good faith mistakes
Mistakenly transmitting, in good faith, false or
misleading or inaccurate information to a price
reporting service would not be sufficient to violate
paragraph (1)(A).

